NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL




          Semiannual Report
            to the Congress
        April 1, 2004 – September 30, 2004
OIG Semiannual Report                                                   September 2004




             INSPECTOR GENERAL'S MESSAGE TO
            THE NCUA BOARD AND THE CONGRESS

As Inspector General, I am privileged to report on the accomplishments of the
National Credit Union Administration (NCUA) Office of the Inspector General
(OIG) for the six-month period ending on September 30, 2004. This report
summarizes our significant audit and investigative efforts during this period.

The NCUA, and as a result the OIG, has experienced certain transitions during
this reporting period. Most significantly, NCUA’s former Chairman, Dennis
Dollar, retired on April 30, 2004, and in June 2004, NCUA employees voted for
union representation by the National Treasury Employees’ Union.

The retirement of Chairman Dollar left the NCUA Board with two members, the
current Chairman, JoAnn Johnson and Board Member Deborah Matz. It is with
great anticipation that the OIG and the agency await the appointment of a third
individual to fill Chairman Dollar’s slot. We look forward to continuing a
positive relationship with the existing Board members as well as the next
appointee.

Our audit staff accomplished a major review this reporting period, involving the
operation of the NCUA parking garage. We recently provided a draft report to
agency management regarding the need to strengthen the internal controls over
the parking garage income and expense reporting; oversee more closely garage
parking management practices; and monitor compliance with contracts governing
the garage operations. The audit staff also issued its annual independent
evaluation of NCUA’s information security program, as required by the Federal
Information Security Management Act.

In addition to a heavy caseload of reactive investigations, our investigator
initiated a proactive review this reporting period into employee misuse of the
internet to access pornographic websites. This review resulted in five individual
investigations.




                                        i
OIG Semiannual Report                                                 September 2004

More than ever, the OIG is dedicated to accomplishing its mission of conducting
independent audits, investigations, and reviews to help the NCUA accomplish its
mission; improve its effectiveness; and prevent and detect fraud, waste, and
abuse. We look forward to working together successfully with the agency to
achieve our strategic mission and goals.




                              Herbert S. Yolles
                              Inspector General




                                      ii
OIG Semiannual Report                                                                                      September 2004


                                             TABLE OF CONTENTS

INSPECTOR GENERAL’S MESSAGE……………………………………………...                                                                                i

NCUA AND OFFICE OF INSPECTOR GENERAL MISSION STATEMENTS…...                                                                    1

INTRODUCTION……………………………………………………………………..                                                                                       2

NCUA ORGANIZATION CHART……...…………………………………………...                                                                                4

NCUA HIGHLIGHTS…...............................................................................................                5

FEDERALLY INSURED CREDIT UNION HIGHLIGHTS.......................................                                               7

LEGISLATIVE HIGHLIGHTS....................................................................................                     8

OFFICE OF THE INSPECTOR GENERAL................................................................                                9

          Audit Activity....................................................................................................   10

          Investigative Activity…….................................................................................            13

          Legislative and Regulatory Reviews……….....................................................                           15

TABLE I – REPORTS WITH QUESTIONED COSTS…………………...................                                                              17

TABLE II – REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT                                                                      18
TO BETTER USE.........................................................................................................

TABLE III – SUMMARY OF OIG ACTIVITY...........................................................                                 19

INDEX OF REPORTING REQUIREMENTS………………………………………..                                                                               20
OIG Semiannual Report                                  September 2004


                        MISSION STATEMENTS




                          THE NCUA MISSION
OUR CHARGE IS TO FOSTER THE SAFETY AND SOUNDNESS OF FEDERALLY INSURED
CREDIT UNIONS AND TO BETTER ENABLE THE CREDIT UNION COMMUNITY TO EXTEND
THE AVAILABILITY OF FINANCIAL SERVICES FOR PROVIDENT AND PRODUCTIVE
PURPOSES TO ALL WHO SEEK SUCH SERVICE, WHILE RECOGNIZING AND ENCOURAGING
CREDIT UNIONS’ HISTORICAL EMPHASIS ON EXTENSION OF FINANCIAL SERVICES TO
THOSE OF MODEST MEANS.

NCUA’S MISSION IS ACCOMPLISHED BY MANAGING THE NATIONAL CREDIT UNION
SHARE INSURANCE FUND IN AN EFFICIENT AND PRUDENT MANNER THROUGH AN
EFFECTIVE SUPERVISION PROGRAM AND A REGULATORY ENVIRONMENT THAT
ENCOURAGES INNOVATION, FLEXIBILITY, AND CONTINUED FOCUS ON ATTRACTING
NEW MEMBERS AND IMPROVING FINANCIAL SERVICE TO EXISTING MEMBERS.




            THE OFFICE OF INSPECTOR GENERAL MISSION
THE OIG PROMOTES THE ECONOMY, EFFICIENCY, AND EFFECTIVENESS OF NCUA
PROGRAMS AND OPERATIONS, AND DETECTS AND DETERS FRAUD, WASTE, AND ABUSE,
THEREBY SUPPORTING NCUA’S MISSION OF MONITORING AND PROMOTING SAFE AND
SOUND FEDERALLY INSURED CREDIT UNIONS.

WE ACCOMPLISH OUR MISSION BY CONDUCTING INDEPENDENT AUDITS,
INVESTIGATIONS, AND OTHER ACTIVITES, AND BY KEEPING THE NCUA BOARD AND THE
CONGRESS FULLY AND CURRENTLY INFORMED OF OUR WORK.




                                    1
OIG Semiannual Report                                                        September 2004


                                  INTRODUCTION


T
        he National Credit Union Administration (NCUA) was established as an
        independent, federal regulatory agency on March 10, 1970. The agency is
        responsible for chartering, examining, supervising, and insuring federal credit
        unions. It also insures state-chartered credit unions that have applied for insurance
and have met National Credit Union Share Insurance requirements. NCUA is funded by
the credit unions it supervises and insures. As of June 30, 2004, the NCUA was
supervising and insuring 5,686 federal credit unions and insuring 3,524 state-chartered
credit unions, a total of 9,210 institutions. This represents a loss of 90 federal and 69 state-
chartered institutions since December 31, 2003, for a total loss of 159 credit unions
nationwide.


                              Federally Insured Credit Unions



     12000
     10000
               4180    4062     3980
       8000                              3866       3735   3593   3524
       6000                                                                         FISCUs
       4000 6815                                                                    FCUs
                       6566     6336     6118       5953   5776   5686
       2000
           0
               1998    1999     2000     2001       2002   2003   2004

NCUA operates under the direction of a Board composed of three members. Board
members are appointed by the President and confirmed by the Senate. They serve six-year
terms. Terms are staggered, so that one term expires every two years. The Board is
responsible for the management of the National Credit Union Administration, including
the NCUA Operating Fund, the Share Insurance Fund, the Central Liquidity Facility, and
the Community Development Revolving Loan Fund.

The National Credit Union Administration executes its program through its central office
in Alexandria, Virginia and regional offices in Albany, New York; Alexandria, Virginia;
Atlanta, Georgia; Austin, Texas; and Tempe, Arizona. NCUA also operates the Asset
Management and Assistance Center (AMAC) in Austin, Texas. Please refer to the NCUA
organizational chart on page 4.

The NCUA Board adopted its 2004 budget of $149,927,592 on November 20, 2003. On
July 20, 2004, the NCUA Board decreased the 2004 budget to $145,299,398. The Full
Time Equivalent (FTE) staffing authorization for 2004 is 963, a reduction of 8 positions
over the 2003 total of 971.


                                                2
OIG Semiannual Report                                                         September 2004



                                       NCUA Budget Dollars

      Millions
           160
           140
           120
           100
            80
            60
            40
            20
             0
                   1998      1999        2000       2001       2002    2003   2004




                                    N C U A A u th o riz e d S ta ff

    1200

    1000

     800

     600

     400

     200

       0
            1998          1999        2000        2001         2002    2003    2004




                                                   3
OIG Semiannual Report                       September 2004



                  NCUA ORGANIZATION CHART




                             4
OIG Semiannual Report                                                    September 2004



                              NCUA HIGHLIGHTS

PRESIDENT BUSH NAMES JOHNSON NCUA CHAIRMAN

Effective May 3, 2004, President George W. Bush named JoAnn Johnson to serve as
NCUA Chairman. Chairman Johnson was an Iowa State Senator prior to President Bush’s
appointment of her to the NCUA Board in 2002. She succeeds former Chairman Dennis
Dollar, who retired from the NCUA Board on April 30, 2004. The Bush Administration
has not yet named a successor to Dollar’s seat on the NCUA Board. Until a third Board
member is appointed or confirmed, Chairman Johnson and Board Member Deborah Matz
will serve as a two-person board.

NCUA EMPLOYEES JOIN OTHER FINANCIAL REGULATORS IN
ORGANIZING INTO NATIONAL TREASURY EMPLOYEES UNION

NCUA employees voted in June 2004 for representation by the NTEU, joining other
federal workers in the financial regulatory agencies which currently have union
representation. The NCUA bargaining unit includes both professional and non-
professional employees and numbers approximately 760 employees. NTEU already
represents employees of the Federal Deposit Insurance Corporation, Office of the
Comptroller of the Currency, and Securities and Exchange Commission. The nationwide
NCUA vote was conducted by the Federal Labor Relations Authority, which oversees
federal sector labor-management relations.

NCUA GRANTS ENHANCE UNDER-SERVED COMMUNITIES

NCUA initiated a program that encourages low-income designated credit unions to apply
for $350,000 in technical assistance grants (TAGs) to cover the operational and
administrative costs specifically associated with establishing and/or maintaining programs
in the areas of financial education assistance, homeownership assistance, and staff training
assistance. Such specialized grants are part of NCUA’s Access Across America initiative
to help people realize homeownership and other aspects of financial participation.

NCUA ACTIVATES DISASTER ASSISTANCE FOR HURRICANE VICTIMS

On August 14, 2004, the NCUA activated its disaster relief policy to assist credit unions
and their members in areas where offices and homes were damaged and destroyed by
wind, rain, and flooding caused by Tropical Storm Bonnie and Hurricane Charley in the
State of Florida. President Bush had earlier that same week declared that a major disaster
existed in Florida and ordered Federal aid to supplement state and local recovery efforts.
NCUA examiners from Region III remained in close contact with the affected federal
credit unions to offer advice and assistance.




                                             5
OIG Semiannual Report                                                    September 2004


NCUA TESTIFIES BEFORE CONGRESS

For the first time in recent history, NCUA joined the Federal Reserve Board, FDIC, and
other federal and state financial regulators in testifying on the condition of the financial
industry before the U.S. Senate Committee on Banking, Housing and Urban Affairs on
April 20, 2004. Former NCUA Chairman Dollar reported to committee members on the
strong state of the credit union industry as well as the health of the NCUA’s $6 billion
National Credit Union Share Insurance Fund. In addition, Chairman Johnson testified
before the Senate Banking Committee on Bank Secrecy Act compliance; as well as before
the House Financial Services Subcommittee on NCUA’s support for the Credit Union
Regulatory Improvements Act of 2003 (CURIA).




                                             6
OIG Semiannual Report                                                       September 2004




    FEDERALLY INSURED CREDIT UNION HIGHLIGHTS


C
       redit unions submit quarterly call reports (financial and operational data) to NCUA.
       An NCUA staff assessment of the June 30, 2004, quarterly call reports submitted
       by all federally insured credit unions found that virtually all key financial indicators
       were stable for the first six months of 2004.

KEY FINANCIAL INDICATORS STABLE

Looking at the June 30, 2004 quarterly statistics for major balance sheet items and key
ratios shows the following for the nation’s 9,210 federally insured credit unions: assets
grew 4.17 percent, or $25.4 billion; net worth to assets ratio remained the same at 10.7
percent; the loan to share ratio increased from 71.19 percent to 71.84 percent; the
delinquency ratio decreased from .77 to .76 percent; and credit union return on average
assets decreased from .99 percent to .92 percent.

SAVINGS INCREASED

Total share accounts increased 4.03 percent, or $21.3 billion. Regular shares comprise
37.0 percent of total share accounts; share certificates comprise 21.8 percent; money
market shares comprise 18.8 percent; share draft accounts comprise 12.4 percent; and 10.0
percent is in other share accounts.

LOANS AND INVESTMENTS ALSO INCREASED

Loan growth of 4.98 percent resulted in an increase in total loans by $18.7 billion. First
mortgage real estate loans increased 6.04 percent; used auto loans increased 3.17 percent;
other real estate loans increased 10.20 percent; unsecured credit card loans decreased 3.75
percent; all other unsecured loans decreased 1.66 percent; new auto loans increased 5.73
percent; and all other loans increased 6.95 percent. First mortgage real estate loans are the
largest single asset category with $124.6 billion accounting for 32 percent of all loans.
Total investments increased $4.9 billion or 4.68 percent. Investments with maturities less
than one year account for 46.08 percent of all credit union investments.




                                              7
OIG Semiannual Report                                                    September 2004



                       LEGISLATIVE HIGHLIGHTS
CHAIRMAN JOHNSON TESTIFIES THAT NCUA’S EXAMINATION PROGRAM
EMPHASIZES BANK SECRECY ACT (BSA) COMPLIANCE

In her first Capitol Hill appearance as chairman, Chairman Johnson testified during a
Senate Banking, Housing, and Urban Affairs Committee hearing on June 3, 2004, that
BSA compliance was a salient part of the NCUA examination program. Chairman
Johnson detailed to Committee members the BSA-related requirements of the examination
program and examiner education. She indicated further that NCUA had issued eight
Letters to Credit Unions and Regulatory Alerts to educate federally insured credit unions
on BSA and USA PATRIOT Act compliance in the last few years. The agency is currently
updating its Compliance Self Assessment Guide, which highlights key BSA requirements.

CHAIRMAN JOHNSON VOICES SUPPORT FOR CURIA

Before the House Financial Services Subcommittee on Financial Institutions on July 20,
2004, Chairman Johnson characterized the Financial Institutions Regulatory Relief Act of
2004 as a significant bipartisan achievement that NCUA supports. Chairman Johnson
stated further that NCUA enthusiastically supports the introduction of the Credit Union
Regulatory Improvements Act of 2003 (CURIA). CURIA currently contains statutory
changes that will directly affect federal credit union operations, including establishing a
risk-based system for prompt corrective action (PCA), raising the cap on member business
lending (MBL) to 20 percent of total assets, and increasing the minimum MBL threshold to
$100,000.

SARBANES INTRODUCES REMITTANCE REFORM BILL

Senator Paul Sarbanes, D-MD., introduced a bill on September 30, 2004, that, along with
reforming practices in issuing international remittances, would allow credit unions to offer
remittances and check cashing to anyone eligible to join, not just members. The
International Remittance Consumer Protection Act of 2004 would also mandate
disclosures to remittance customers and an error resolution process for remittance
transfers.




                                             8
OIG Semiannual Report                                                   September 2004




              OFFICE OF THE INSPECTOR GENERAL


T      he Office of the Inspector General was established at the NCUA in 1989 under the
       authority of the Inspector General Act of 1978, as amended in 1988. The staff
       consists of the Inspector General, Deputy Inspector General for Audits, Counsel to
the Inspector General, Director of Investigations, two Senior Auditors, Senior Information
Technology Auditor, and Office Manager.

The Inspector General reports to, and is under the general supervision of, the NCUA
Board. The Inspector General is responsible for:

1. Conducting, supervising, and coordinating audits and investigations of all NCUA
   programs and operations;

2. Reviewing policies and procedures to ensure efficient and economic operations as well
   as preventing and detecting fraud, waste, and abuse;

3. Reviewing existing and proposed legislation and regulations to evaluate their impact on
   the economic and efficient administration of agency programs; and

4. Keeping the NCUA Board and the Congress apprised of significant findings and
   recommendations.




                                            9
OIG Semiannual Report                                                     September 2004



                                AUDIT ACTIVITY
AUDIT REPORTS ISSUED

Independent Evaluation of
NCUA’s Information Security Program
OIG-04-05 September 30, 2004

The Federal Information Security Management Act (FISMA) permanently reauthorized the
framework laid out in the Government Information Security Reform Act of 2000 (GISRA)
which expired in November 2002. FISMA continues annual review and reporting
requirements introduced in GISRA.

During 2004, the OIG engaged Cotton & Company LLP to conduct an independent
evaluation of NCUA’s information systems (IS) and security program and controls for
compliance with FISMA, Title III of the E-Government Act of 2002, and Office of
Management and Budget (OMB) Circular A-130, Appendix III. This report discusses the
effectiveness of IS controls to protect and secure NCUA's information technology (IT)
infrastructure and assets.

The report notes that the Chief Information Officer (CIO) made progress during the past
year to improve NCUA’s IT infrastructure. During 2004, NCUA completed an interim
certification and accreditation of it’s general support system; completed and updated
several plans and risk assessments; and, identified and reported 114 weaknesses in the
NCUA Plans of Action and Milestones report. Of the 114 items, 60 were completed, 38
have milestones or completion dates, 8 were delayed, the CIO made risk based decisions to
accept risk on 6, and 2 continue to be identified as significant deficiencies for this year’s
FISMA reporting cycle.

Two significant deficiencies carried over from last year’s independent evaluation still have
not been fully addressed. First, we determined that information stored on examiner’s
laptop computers has not been addressed as part of NCUA’s information security program.
We noted that NCUA has taken some measures to protect information on examiners
laptops. However, a formal review of the risks involved and protections necessary to
address these risks has not been conducted. This could result in the intentional or
accidental release of credit union member information.

Second, we noted several weaknesses related to the underlying general support systems
and network components. This is significant because every application relies on the
security of the operating system and network infrastructure on which it resides. NCUA’s
general support system is operating under an interim accreditation based on several
weaknesses identified during the formal certification process. The general support system
is operating at medium to high risk because NCUA has not corrected or accepted risk on
weaknesses identified during the interim certification.



                                             10
OIG Semiannual Report                                                    September 2004

While we noted other weaknesses in IT controls, we concluded the two conditions
described above are the most significant to NCUA.


OIG Report to OMB on NCUA Compliance With
The Federal Information Security Management Act 2004
OIG-04-06 September 30, 2004

This report contains a summary of our evaluation of the NCUA’s information security
program presented in the OMB prescribed format.

The OIG issued two reports during the past year that reported on the testing of the
effectiveness of information security and internal controls:

   •   On September 30, 2004 the OIG issued a report containing an Independent
       Evaluation of the NCUA’s Information Security Program - 2004. The content of
       the independent evaluation report supports the conclusions presented in this report.

   •    On March 31, 2004, the OIG issued the Financial Statement Audit Report for the
       year ended December 31, 2003. The purpose of this audit was to express an
       opinion on whether the financial statements were fairly presented. In addition, the
       internal control structure was reviewed and an evaluation of compliance with laws
       and regulations was performed as part of the audit. The result of this audit was an
       unqualified opinion, stating that the financial statements were presented fairly.
       Although there were no material weaknesses identified during the review of the
       internal control structures pertinent to financial reporting, nine recommendations
       were made relating to weaknesses in the area of information security.


AUDITS IN PROGRESS

Review of The King Street Station Parking Garage

The NCUA Chief Financial Officer (CFO) expressed concern to the Inspector General that
revenue reports for the parking garage had shown a declining net income trend over the
past five years. In response to this concern and because the OIG had never reviewed or
audited the parking garage operations, we decided to conduct this audit. Our four main
objectives were to (1) determine whether the declining income trend for parking revenue
was valid; (2) assess internal controls over the parking garage income and expenses; (3)
determine whether NCUA was receiving its correct share of parking garage net income;
and (4) review the reasonableness and current applicability of the parking garage contracts
and agreements.

We have completed our review and the draft report has been sent to the agency and
contractors for comment. We expect to issue the final report by the end of November
2004.


                                            11
OIG Semiannual Report                                                   September 2004




Review of NCUA’s Supervision of State Chartered Credit Unions

The objective of this review is to evaluate how NCUA supervises and monitors federally
insured, state chartered credit unions. This review will also evaluate how agreements are
negotiated between NCUA and the respective state supervisory authorities as well as the
adequacy of the agreements regarding supervision and monitoring of federally insured
state chartered credit unions.

We have completed audit work on this assignment and have begun drafting the report.


SIGNIFICANT AUDIT RECOMMENDATIONS ON WHICH CORRECTIVE
ACTION HAS NOT BEEN COMPLETED

As of September 30, 2004, there was one significant audit recommendation in reports
issued over six months ago that has not been either fully implemented or in the process of
implementation. On September 12, 2003, the OIG recommended that NCUA develop and
implement a security policy covering the sensitive credit union member data residing on
examiners laptop computers and other electronic media to ensure an acceptable level of
protection of this data comparable to NCUA’s regulations governing credit unions. As of
September 30, 2004, NCUA has not committed to implementation of this recommendation.




                                           12
OIG Semiannual Report                                                      September 2004



                         INVESTIGATIVE ACTIVITY


  I
       n accordance with professional standards and guidelines established by the
       Department of Justice, the OIG performs investigations of criminal, civil, and
       administrative wrongdoing involving agency programs.             Our investigative
       jurisdiction focuses on activities designed to promote economy, effectiveness, and
efficiency, as well as fighting fraud, waste, and abuse in agency programs. In addition to
our efforts to deter misconduct and promote integrity awareness among agency employees,
we investigate referrals and direct reports of employee misconduct. Investigations may
involve possible violations of regulations regarding employee responsibilities and conduct,
Federal criminal law, and other statutes and regulations pertaining to the activities of
NCUA employees.

Moreover, we receive complaints from credit union members and officials that involve
NCUA employee program responsibilities. We examine these complaints to determine
whether there is any allegation of NCUA employee misconduct. If not, we refer the
complaint to the appropriate regional office for response, or close the matter if contact with
the regional office indicates that the complaint has already been appropriately handled.

Part of the OIG’s strategy for promoting employee integrity includes both proactive and
reactive investigative projects designed to provide the agency with essential information to
be used in setting policy. During this reporting period, the OIG initiated a proactive review
of potential employee misuse of government-issued computers to access and view internet
pornography. The review revealed that a number of employees were accessing
pornographic websites. However, the agency’s Chief Information Officer (CIO) informed
us that the number of employees identified by our review was likely not an overall
representation of actual employee activity, because many employees access the internet
from remote sites, and are able to do so without detection by the NCUA system. As a
result of the review, the OIG opened formal investigations on five individuals identified by
the system as having frequently engaged in inappropriate internet activity during business
hours. All five individuals acknowledged viewing pornography while at work, although in
two cases the employees claimed that the inappropriate internet activity was the result of
opening pop-ups which appeared during otherwise authorized internet activity. In two
cases, employees acknowledged long term and egregious use of the internet to surf
pornography. The most egregious case involved a senior level employee who retired as a
result of the investigation. The OIG review found that the agency had in place a very clear
policy prohibiting employees from accessing adult web sites. Additionally, the Office of
the Chief Information Officer implemented blocking software to aid in reducing further
employee misconduct. The OIG recommended that the agency establish a process for
periodically assessing employee compliance with the existing policy.




                                             13
OIG Semiannual Report                                                    September 2004



                         Investigative Operations


                            Matters/inquiries/investigations carried  4
                               forward from previous reporting period

                             Matters initiated during reporting period    9

                             Matters closed                               7

                             Investigative reports issued                 6

                             Investigative Subpoenas issued               1

                             Matters referred back to the agency          1

                             Management Implication Reports issued        0

                             Matters remaining open                       6



CLOSED INVESTIGATIONS

During this reporting period, we closed seven (7) matters. Six (6) matters (5 investigative
reports and 1 memorandum report) involved, as reported above, employee misuse of
government-issued computers for the purpose of accessing and viewing internet
pornography. In addition to the individual who retired as a result of the investigation, the
agency is currently considering appropriate action in the other cases.

One (1) investigation, involving possible contract fraud, was closed to file as no evidence
of misconduct was developed.

During this reporting period, we received one (1) referral for investigation which was
declined for investigation and/or were returned to the agency for appropriate action.

The OIG issued one (1) IG subpoena during this reporting period.




                                              14
OIG Semiannual Report                                                    September 2004



           LEGISLATIVE AND REGULATORY REVIEWS

Section 4(a) of the Inspector General Act requires the Inspector General to review existing
and proposed legislation and regulations relating to the programs and operations of NCUA
and to make recommendations concerning their impact. Moreover, we routinely review
proposed agency instructions and other policy guidance, in order to make
recommendations concerning economy and efficiency in the administration of NCUA
programs and operations and the prevention and detection of fraud, waste and abuse.

During the reporting period, the OIG reviewed 19 items, including proposed and final
changes to legislation, regulations, and agency Instructions, Manuals and Bulletins. While
the OIG provided comments on agency instructions regarding travel policy changes;
processing complaints against credit unions and documenting compliance violations; and
prevention of sexual harassment, we had no comments or recommendations regarding
NCUA’s proposed regulatory changes.

          SUMMARY OF STATUTES AND REGULATIONS REVIEWED
       Legislation                                  Title
 S. 2868               “International Remittance Consumer Protection Act of 2004”
  Regulations/Rulings                               Title
 12 CFR Part 701       Proposed Rule and Summary of Comments: Change in Official
                       or Senior Executive Officer in Credit Unions that are Newly
                       Chartered or Are in Troubled Condition
 12 CFR Part 701, 742  Final Rule: Federal Credit Union Ownership of Fixed Assets
 12 CFR Parts 703, 704 Final Rule: Investment in Exchangeable Collateralized
                       Mortgage Obligations
 12 CFR Part 708a      Proposed Rule with Request for Comments: Conversion of
                       Insured Credit Unions to Mutual Savings Banks
 12 CFR Part 708b      Proposed Rule with Request for Comments: Mergers of
                       Federally-Insured Credit Unions; Voluntary Termination or
                       Conversion of Insured Status
 12 CFR Part 717       Notice of Proposed Rulemaking: Fair Credit Reporting--
                       Affiliate Marketing Regulations
 12 CFR parts 717, 748 Notice of Proposed Rulemaking: Fair Credit Reporting—
                       Proper Disposal of Consumer Information under the Fair and
                       Accurate Credit Transactions Act of 2003
 12 CFR Section 723    Proposed Rule and Summary of Comments: Member Business
                       Loans
 12 CFR Parts 724, 721 Notice of Proposed Rulemaking: Health Savings Accounts
 12 CFR Part 745       Interim Final Rule with Request for Comments: Share
                       Insurance; Living Trust Accounts
 12 CFR Chap. VII      Proposed Rule; Notice of Regulatory Review; Request for
                       Comments: Summary of Comments--EGRPRA


                                            15
OIG Semiannual Report                                             September 2004



Instructions/Bulletins                             Title
Personnel Manual         “Hours of Work”
Chapter 10
Bulletin No. 1201.06B    “Daily Time Log for Non-Bargaining Unit Employees”
Bulletin No. 1201.07b    “Interim Changes to Supervisory Examiner and Corporate
                         Supervisory Examiner Time Reporting Process”
Instruction No.          “Processing Complaints against Credit Unions and
12400.05                 Documenting Compliance Violations”
Instruction No.          “Administrative Leave for Federal Employees Returning from
1200.13B                 Active Military Duty”
Instruction No. 1401     “NCUA Travel Policies and Guidelines”
Instruction No. 1235.2   “Prevention of Sexual Harassment”




                                        16
OIG Semiannual Report                                                      September 2004



                                        TABLE I

                     INSPECTOR GENERAL ISSUED REPORTS
                          WITH QUESTIONED COSTS

                                                    Number of   Questioned     Unsupported
                                                     Reports      Costs           Costs

A.      For which no management
        decision had been made by the                  0            $0               $0
        start of the reporting period.

B.      Which were issued during the
        reporting period.                              0             0               0

        Subtotals (A + B)                              0             0               0

C.      For which management decision
        was made during the reporting                  0             0               0
        period.

        (i) Dollar value of disallowed costs           0             0               0

        (ii) Dollar value of costs not                 0             0               0
        disallowed

D.      For which no management
        decision has been made by the end              0             0               0
        of the reporting period.

E.      Reports for which no management
        decision was made within six                   0             0               0
        months of issuance.


Questioned costs are those costs the OIG has questioned because of alleged violations of
laws, regulations, contracts, or other agreements; findings which at the time of the audit are
not supported by adequate documentation; or the expenditure for the intended purpose is
unnecessary or unreasonable.

Unsupported costs (included in "Questioned Costs") are those costs the OIG has
questioned because of the lack of adequate documentation at the time of the audit.




                                               17
OIG Semiannual Report                                                    September 2004



                                      TABLE II

               INSPECTOR GENERAL ISSUED REPORTS
      WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                              Number of          Dollar
                                                               Reports           Value

 A.    For which no management decision had been
       made by the start of the reporting period.                  0               $0

 B.    Which were issued during the reporting period.              0               0

       Subtotals (A + B)                                           0               0

 C.    For which management decision was made
       during the reporting period.                                0               0

       (i) Dollar value of recommendations agreed to
       by management.                                            N/A              N/A

       (ii) Dollar value of recommendations not
       agreed to by management.                                  N/A              N/A

 D.    For which no management decision was made
       by the end of the reporting period.                         0               0

 E.    For which no management decision was made
       within six months of issuance.                              0               0


Recommendations that "Funds to be Put to Better Use" are those OIG recommendations
that funds could be used more efficiently if management took actions to reduce outlays, de-
obligate funds from programs/operations, avoid unnecessary expenditures noted in pre-
award reviews of contracts, or any other specifically identified savings.




                                            18
OIG Semiannual Report                                         September 2004



                               TABLE III
                     SUMMARY OF OIG ACTIVITY
              APRIL 1, 2004 THROUGH SEPTEMBER 30, 2004

PART I – AUDIT REPORTS ISSUED
Report                                                             Date
Number     Title                                                   Issued
OIG-04-05  Independent Evaluation of NCUA’s Information Security   9/30/2004
           Program 2004
OIG-04-06  OIG Report to OMB on NCUA’s Compliance with the         9/30/2004
           Federal Information Security Management Act 2004

PART II – AUDITS IN PROGRESS (as of September 30, 2004)
           Review of the King Street Station Parking Garage
           Review of NCUA’s Federally Insured State Chartered Credit Union
           Program




                                     19
OIG Semiannual Report                                              September 2004



             INDEX OF REPORTING REQUIREMENTS

 SECTION                       DATA REQUIRED                        PAGE REF
  4(a)(2)    Review of Legislation and Regulations                     15
  5(a)(1)    Significant Problems, Abuses, or Deficiencies             10
             relating to the administration of programs and
             operations disclosed during the reporting period.
  5(a)(3)    Recommendations with Respect to Significant                10
             Problems, Abuses, or Deficiencies.
  5(a)(3)    Significant Recommendations Described in Previous          12
             Semiannual Reports on Which Corrective Action Has
             Not Been Completed.
  5(a)(4)    Summary of Matters Referred to Prosecution               None
             Authorities and Prosecutions, Which Have Resulted.
  5(a)(5)    Summary of Each Report to the Board Detailing            None
             Cases Where Access to All Records Was Not
             Provided or Where Information Was Refused.
  5(a)(6)    List of Audit Reports Issued During the Reporting          19
             Period.
  5(a)(7)    Summary of Particularly Significant Reports.               10
  5(a)(8)    Statistical Tables on Audit Reports With Questioned        17
             Costs.
  5(a)(9)    Statistical Tables on Audit Reports With                   18
             Recommendations That Funds Be Put To Better Use.
  5(a)(10)   Summary of Each Audit Report Issued Before the           None
             Start of the Reporting Period for Which No
             Management Decision Has Been Made by the End of
             the Reporting Period.
  5(a)(11)   Description and Explanation of Reasons for any           None
             Significant Revised Management Decision Made
             During the Reporting Period.
  5(a)(12)   Information Concerning Significant Management            None
             Decisions With Which the Inspector General is in
             Disagreement.




                                        20
OIG Semiannual Report                                      September 2004




                        WE WANT TO HEAR FROM YOU



                CALL THE OIG HOTLINE




                        TOLL FREE 1-800-778-4806

                        WASHINGTON METRO AREA
                            703-518-6357
       You may call ANONYMOUSLY, or request that YOUR call be kept
                          CONFIDENTIAL




                                   21
